    Additional Copies

    To obtain additional copies of this report, visit the Web site of the Inspector
    General of the Department of Defense at www.dodig.osd.mil/audit/reports or
    contact the Secondary Reports Distribution Unit of the Audit Followup and
    Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
    (703) 604-8932.

    Suggestions for Future Audits

    To suggest ideas for or to request future audits, contact the Audit Followup and
    Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
    (703) 604-8932. Ideas and requests can also be mailed to:

                      OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General of the Department of Defense
                            400 Army Navy Drive (Room 801)
                                Arlington, VA 22202-4704

    Defense Hotline

    To report fraud, waste, or abuse, contact the Defense Hotline by calling
    (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil;
    or by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
    The identity of each writer and caller is fully protected.




Acronyms

AMCOM               Aviation and Missile Command
CAFU                Contract Audit Followup
DCAA                Defense Contract Audit Agency
FAR                 Federal Acquisition Regulation
IMA                 Information Management and Assessment
OIG DoD             Office of the Inspector General of the Department of Defense
OSC                 Operations Support Command
PARC                Principal Assistant Responsible for Contracting
TACOM-ARDEC         Tank-Automotive and Armaments Command-Armament Research
                       Development and Engineering Center
       Office of the Inspector General of the Department of Defense

Report No. D-2002-6-009                                                September 18, 2002
   (Project No. D-2001CG-0139)




                  The Army Contract Audit Followup Process

                                 Executive Summary

Who Should Read This Report and Why? Civilian and military acquisition officials
responsible for any aspect of ensuring proper and timely settlement of contract audit
issues should read this report. The report explains how to improve the contract audit
followup process and therefore maximize the potential savings from more effective
disposition of audit findings.

Background. This report addresses the Army contract audit followup process for
ensuring the proper, timely resolution and disposition of contract audit issues. It
discusses the Army’s ability to accurately monitor contract audit reports, effectively settle
audit findings, and submit the status of all Army contract audit reports semiannually to
the Office of the Inspector General of the Department of Defense. The Army’s two
semiannual reports covering the 12-month period ending March 31, 2001, included
209 audit reports with total questioned costs of $362 million.

Results. Although the Army generally complied with DoD contract audit followup
procedures, the Army needs to improve the reliability of its contract audit followup
databases and to correctly and timely pursue repayments, including interest. One
settlement we reviewed resulted in a potential Antideficiency Act violation. The Army
should create a process for the accurate and complete preparation of Army semiannual
reports to improve their reliability. The Army should also include the contract audit
followup function as an area of special interest in its FY 2003 Procurement Management
Review Program. Increased awareness of debt collection guidance and improved
documentation on the status of reportable audits will assist contracting officers to
improve their efficiency at dispositioning audit findings. Finally, the Army must conduct
a preliminary review to determine whether a potential Antideficiency Act occurred when
a contracting officer settled an audit report and did not send the interest payment to the
U.S. Treasury.

Management Comments. The Army concurred with the recommendations and is in the
process of adopting a web-based contract audit followup system, is investigating the
potential Antideficiency Act violation, and will make contract audit followup an area of
special interest in the FY 2003 Procurement Management Review Program. Previously,
the Army took action to update semiannual report information based on our initial results.
Table of Contents

Executive Summary                                                                i


Introduction
     Background                                                                  1
     Objectives                                                                  1

Findings
     A. Accuracy of Contract Audit Followup Information                         2
     B. Army Resolution and Disposition of Reportable Audits                    6

Appendixes
     A. Scope and Methodology                                                   12
          Management Control Program Review                                     14
          Prior Coverage                                                        14
     B. Report Distribution                                                     15

Management Comments
     Assistant Secretary of the Army (Acquisition, Logistics, and Technology)   17
     Assistant Secretary of the Army (Financial Management and Comptroller)     19
Background
     Contract Audit Followup. The Office of Management and Budget Circular
     No. A-50 (OMB Circular A-50), “Audit Followup,” September 29, 1982,
     prescribes policies and procedures for Executive agencies to establish followup
     systems to assure prompt and proper resolution and implementation of audit
     recommendations. OMB Circular A-50 requires agencies to maintain accurate
     records of the status of audit reports or recommendations through the entire
     process of resolution and corrective action. The DoD Directive 7640.2, “Policy
     for Followup on Contract Audit Reports,” February 12, 1988, as amended
     August 16, 1995, implements OMB Circular A-50 and establishes DoD policies,
     responsibilities, reporting requirements, and followup procedures for contract
     audit reports. Secretaries of the Military Departments and Directors of the
     Defense agencies are required by DoD Directive 7640.2 to maintain adequate
     followup systems for the proper, timely resolution and disposition of contract
     audit reports.

     DoD Directive 7640.2 also requires all DoD Components to submit reports on the
     status of reportable contract audits semiannually to the Inspector General of the
     Department of Defense within 30 calendar days of the 6-month periods ending
     March 31 and September 30 and specifies the information to be reported and the
     format to be used.

     Army Implementation. The Army has established policies and procedures that
     implement the DoD Directive 7640.2 requirements to establish certain
     responsibilities, reporting requirements, and followup procedures for contract
     audit reports. The Army contract audit followup policy and procedures are
     contained in the Army Federal Acquisition Regulation Supplement Subpart
     5142.1-90, “Follow-up on Contract Audit Reports.”


Objectives
     The overall objective was to evaluate the Army Contract Audit Followup (CAFU)
     process. Specifically, we evaluated the accuracy of the Army’s contract audit
     followup data and actions taken by contracting officials to ensure proper and
     timely settlement of contract audit issues. We also reviewed the management
     control program as it related to the stated objectives. See Appendix A for a
     discussion of the audit scope and methodology, the review of the management
     control program, and prior coverage related to the audit objectives.




                                         1
           A. Accuracy of Contract Audit Followup
              Information
           The Army’s semiannual reports to the Office of the Inspector General of
           the Department of Defense (OIG DoD) for the periods ending
           September 30, 2000, and March 31, 2001, contained incomplete and
           inaccurate contract audit followup information. The semiannual reports
           did not include 42 reports (with total questioned costs of $35.1 million)
           out of the 94 reports issued by the Defense Contract Audit Agency
           (DCAA) to the Army during those periods. Inadequate management
           control procedures and the use of an obsolete data gathering process
           contributed to the omissions. Examples of inaccuracies included unusual
           delays in updating the semiannual report information and the deletion of
           information from the reports without explanations. As a result, Army
           procurement officials may not have reliable data to effectively determine
           whether audit findings are resolved and dispositioned in accordance with
           DoD guidelines.


Accuracy of Information in Army Semiannual Reports
    The DoD Directive 7640.2, paragraph 6.3, “Reporting Requirements,” requires
    DoD acquisition and contract administration organizations to maintain timely and
    complete information regarding the status of reportable contract audit reports
    from the time the report is received through final disposition.

    Incomplete Reporting. The DCAA provided a record each month to Army
    Headquarters listing all audit reports that the DCAA had issued during the month
    and that required resolution and disposition by the Army. We compared the
    DCAA information provided in the reports for April 2000 through March 2001 to
    the information in the two Army semiannual reports covering the 12-month
    period to determine whether the Army had included all DCAA issued audit
    reports. The two Army semiannual reports omitted 54 of the 94 audit reports
    included in the DCAA monthly records to the Army. With Army and DCAA
    assistance, we determined the reasons 12 of the 54 were omitted. DCAA
    accounted for 6 of the errors and the Corps of Engineers had not forwarded
    6 audit reports to the correct office. However, Army management could not
    explain why the remaining 42 reportable audits were not included in the
    semiannual reports.

    Processing of Semiannual Report Information. The Army CAFU semiannual
    reporting process is initiated at the lowest level, which is the contracting activities
    that receive the audit reports from the DCAA. The contracting activities could
    not verify whether they had received all reports issued to them because Army
    Headquarters did not always provide the monthly records received from the
    DCAA to the commands. The CAFU program manager at Army Headquarters
    did not reconcile the semiannual report information received from the commands
    against the DCAA records. He collected information received from the


                                           2
    commands, consolidated it, and submitted a semiannual report to the OIG DoD.
    The program manager believed the Principal Assistant Responsible for
    Contracting (PARC) at the command level was responsible for the accuracy and
    completeness of the CAFU data.

    Inaccuracies in Army Semiannual Reports. Examples of inaccuracies included
    unusual delays in updating the semiannual report information and the deletion of
    information from the reports without explanations. Three audits that were issued
    in 1995 and 1996 appeared in the March 31, 2001, report though the reports were
    not listed in the earlier September 30, 2000, report. Fifteen audits that were listed
    as opened in the September 30, 2000, report were not carried over to the
    March 31, 2001, report as either opened or closed cases. Those 18 reports
    represented $14.5 million of questioned costs. Other examples of inaccuracies in
    the two reports included the predating of records and input errors that could have
    been corrected if edit checks had been performed. As a result of these and other
    errors, we were unable to fully reconcile the number of audits opened and closed
    in the two semiannual reports.


Army Contract Audit Followup Policies and Procedures
    Army CAFU Policies and Practices. The Assistant Secretary of the Army
    (Acquisition, Logistics, and Technology) is responsible for Information
    Management and Assessment (IMA). Army Federal Acquisition Regulation
    Supplement Subpart 5142.1-90-1, “Responsibilities,” states that the Director for
    IMA is the Army’s contract audit followup official but is silent on what the
    responsibilities are for that office. In contrast, the duties of the PARC are clear.
    Among other duties, the PARCs must ensure the effective and timely resolution
    and disposition of audit findings and recommendations and maintain close
    surveillance of all contract audit reports. The duties of the Director for IMA
    should include the establishment of procedures to ensure accuracy of semiannual
    report information and consistency of reporting.
    Automated Procedures. The Army did not have a Service-wide system and had
    no current plan or funding to improve its current inadequate process. Each
    component used its own procedures to accumulate information at the procurement
    activity level for dissemination to the commands and to headquarters. The point
    of contact at one field office explained that the software program used to collect
    CAFU data forwarded from the commands has limited capabilities and is not
    compatible with the hardware used by some offices. A procurement analyst at the
    Corps of Engineers explained that data comparison is difficult because of
    software limitations. The Operations Support Command (OSC) had recently
    implemented a state-of-the-art system to manage its CAFU process. Another
    command had developed, but had not implemented, a similar system.




                                          3
    The Defense Contract Management Agency is developing a DoD-wide CAFU
    system to be used by all Military Departments and DoD agencies with CAFU
    responsibilities. The new system, once implemented, should enhance the
    accuracy, completeness, and sharing of information.


Army Actions for Improvement of Data Integrity
    The Director for IMA acknowledged the need for improved information
    processing, and took immediate action based on our initial findings. He instructed
    the CAFU program manager to work closely with the PARC offices to improve
    data integrity. He also notified the heads of contracting activities and PARCs
    about the new DoD-wide CAFU system being developed by the Defense Contract
    Management Agency and indicated to them that he will promote field
    participation in testing the new system. In addition, on December 21, 2001, he
    issued a memorandum to the heads of contracting activities and PARCs informing
    them of our initial audit results and requiring them to update and resubmit their
    semiannual reports to his office no later than January 31, 2002. Lastly, if data
    integrity remains an issue by the end of FY 2002, the Director will recommend to
    the Deputy Assistant Secretary of the Army (Procurement) that the CAFU
    function be included as an area of special interest in its FY 2003 Procurement
    Management Review Program.

    As of May 21, 2002, 8 of 21 Army commands had responded to the December 21,
    2001, memorandum from the Director for IMA.


DCAA Audits Provided to the Army
    We determined that 6 of the 54 audits omitted from the two semiannual reporting
    periods included 5 reports that should not have been included in the DCAA
    monthly records to the Army. The five reports covered two assist audits, two
    limited scope reviews, including one forward pricing review, and one report that
    should have been addressed to a civilian, reimbursable group. Those reviews are
    not reportable under DoD Directive 7640.2. DCAA had addressed the sixth
    report to the incorrect Army command.


Recommendations, Management Comments, and Audit
  Response
    A. We recommend that the Assistant Secretary of the Army (Acquisition,
    Logistics, and Technology):

           1. Establish a process for the accurate and complete reporting of the
    contract audit followup semiannual information to the Office of the Inspector
    General of the Department of Defense.


                                        4
Management Comments. The Army concurred with the finding and it is in the
process of adopting a web-based contract audit followup system being developed
by the Defense Contract Management Agency. However, until the new system is
operational, the Army will continue to cross-reference Army generated reports
with DCAA audit reports to ensure all reporting is as accurate and timely as
possible.

       2. Include the contract audit followup area as an area of special
interest in its FY 2003 Procurement Management Review Program.

Management Comments. The Army concurred and is recommending that the
Deputy Assistant Secretary for Procurement and Policy add contract audit
followup as an area of special interest in the FY 2003 Procurement Management
Review Program.




                                   5
           B. Army Resolution and Disposition of
              Reportable Audits
           The Army generally complied with the DoD Directive 7640.2 procedures
           for the resolution and disposition of audit findings in the 96 open and
           closed reports that we reviewed. However, the Army did not issue timely
           letters of demand for repayment with interest in five of nine defective
           pricing cases and did not document any justification for substantial periods
           of inactivity for six audits we reviewed. The Army improperly settled two
           of the five defective pricing settlements in addition to the lack of a
           demand letter. The Army also did not notify the DCAA of the disposition
           of 14 of 53 closed audits. Deficiencies occurred because CAFU personnel
           were either not aware of relevant debt collection guidance or did not
           follow standard settlement procedures. As a result, monies owed to the
           Government may not have been fully collected with interest due, and the
           Army may not always have effectively resolved or dispositioned DCAA
           audit recommendations. In one case, the deficiencies resulted in a
           potential Antideficiency Act violation.


Bilateral Contract Modifications Without Demand Letters
    Demand for Payment of Overpayments. If the Government makes
    overpayments for defectively priced supplies or services, Federal Acquisition
    Regulation (FAR) Subpart 32.610, “Demand for Payment of Contract Debt,”
    requires that a demand for payment be issued to the contractor as soon as the
    Government has computed the amount of refund due. FAR Subpart 32.610(b)
    prescribes the required elements of a demand letter. A demand letter provides the
    contractor with instructions on how, when, and where to repay a contract debt and
    informs Government comptroller officials to establish an account receivable to
    record and follow up on the contact debt and any applicable interest. It is critical
    that the contracting officer also send a copy of each demand letter to the payment
    office designated in the contract and request an acknowledgment of receipt.
    DoD Policy for Contract Debt Collections. The Director for Defense
    Procurement issued a policy memorandum, “Contract Debt Collection,”
    January 13, 1995. The memorandum, Part I, section B, states that:

           1. Demands for payment shall be issued as business letters; they shall
           not be incorporated into contract modifications.

           2. Even though a debt will be the subject of a bilateral modification,
           the contracting officer must still issue a demand for payment. The best
           practice is to send the demand letter with the bilateral modification to
           the contractor for signature.




                                              6
A settlement agreement or a bilateral price-reduction modification without a letter
demanding repayment does not provide sufficient notice of debt disposition. The
FAR, Subpart 32.6, “Contract Debts,” prescribes policies and procedures for
Government actions in ascertaining and collecting contract debts.

Demands for Payments. We reviewed 13 closed defective pricing reports. The
contracting officer did not sustain any questioned costs in 4 of the 13 reports. The
remaining nine reports were dispositioned with monies owed to the Government.
Army contracting officers settled five of the nine audits using bilateral contract
modifications without having issued demand letters as required by FAR and DoD
policy guidance. Details of the five audit reports are shown in Table 1.

             Table 1. Defective Pricing Audits Without Demand Letters
 Command                    Audit Report Number                   Principal*            Interest*   Total Owed

 AMCOM                      2801-1996X42000001-S1                  $159,736            $ 14,376     $ 174,112
 AMCOM                      2801-1998X42000005                       393,854            115,202        509,056
 AMCOM                      1461-1994A42098007                       115,510            103,888        219,398
 OSC                        1271-1997W42098111                        75,000             27,917        102,917
 TACOM-ARDEC                3541-1997N42000001                       102,198             33,846        136,044
    Total                                                          $846,298            $295,229     $1,141,527
 * Amounts recorded in Army files as settlement amounts and have not been validated.




CAFU officials at OSC and Aviation and Missile Command (AMCOM) were
unaware of the specific guidance in the DoD policy memorandum. In addition,
AMCOM written procedures for dispositioning defective pricing audits using
bilateral contract modifications specifically instructed that the repayment demand
appear in the text of the modification with the overpayment and interest amounts
separately identified.
We discussed the need to disseminate available guidance with management in the
Office of the Director for Defense Procurement. On March 27, 2002, Defense
Procurement posted the memorandum to their web site at
http://www.acq.osd.mil/dp/ to increase awareness of proper debt collection
procedures throughout the DoD acquisition community. The document is also
accessible through the Defense Acquisition Deskbook website under updated
documents/OSD at http://deskbooktransition.dau.mil. DoD Regulation
7000.14-R, “Financial Management Regulation,” volume 10, chapter 18,
“Contractor Debt Collection,” contains additional policy and procedures for the
collection and recovery of debts owed by contractors.




                                                    7
Settlement Actions Needing Correction
    Contract Price Adjustments for Defective Pricing. The Truth in Negotiations
    Act requires a downward adjustment to the contract price, including profit or fee,
    if the price was increased because the contractor submitted defective cost or
    pricing data and the Government relied on the defective data when negotiating the
    contract price. In addition, the Truth in Negotiations Act requires contractors to
    pay interest on overpayments because of defective cost or pricing data.

    DoD Policy. The January 13, 1995, DoD policy memorandum, Part I, section C
    states that:

           The payment office will refund interest and penalty amounts to the
           U.S. Treasury, while principal amounts will be credited to the original
           appropriation or to Miscellaneous Receipts.

    The Army improperly settled two of the five defective pricing settlements in
    addition to the lack of a demand letter. In one case, the contracting officer did not
    include a statement releasing the government from future responsibility for
    significant charges asserted by the contractor and included as part of the
    settlement. In the other case, the contracting officer reduced the amount owed on
    the contract by the interest amount. The interest should have gone to the
    Department of Treasury.

       •   Audit report number 1271-1997W42098111 contained a recommended
           price adjustment of $728,278 against contract number DAAA09-94-C-
           0282. The contractor maintained that no defective pricing had occurred
           and concurrently anticipated charging the government $230,000 to settle
           separate issues on contract number DAAA09-95-C-0036. The contracting
           officer settled both issues together in part by reducing the contract price
           for contract number DAAA09-95-C-0036 by $75,000. In this case, the
           settlement of defective pricing issues involving two contracts was
           acceptable. However, the contracting officer did not include in the
           settlement modification a statement specifically releasing the government
           from the $230,000 in anticipated charges against contract number
           DAAA09-95-C-0036. Since these potential charges were part of the final
           negotiated settlement, a specific release statement should have been part
           of the settlement modification to prevent the contractor from asserting
           those charges again at a later date.

       •   In dispositioning audit report number 3541-1997N42000001, a contracting
           officer at Tank-Automotive and Armaments Command-Armament
           Research Development and Engineering Center (TACOM-ARDEC)
           negotiated a total settlement of $136,044, including $102,198 for principal
           and $33,846 for interest. To expedite the closeout, the contracting officer
           reduced the amount owed the contractor under an unrelated modification
           to the same contract by the entire $136,044. The interest of $33,846
           should have gone to the U.S. Treasury. Per DoD Regulation 7000.14-R,
           “Financial Management Regulation,” volume 14, “Administrative Control
           of Funds and Antideficiency Act Violations,” a department may not
                                              8
         augment its appropriation without specific statutory authorization. In this
         case, by not depositing the interest of $33,846 in the U.S. Treasury, the
         contracting officer created a potential violation of the Antideficiency Act.


Unexplained Inactivity in Dispositioning Reportable Audits
     Guidelines for Resolution and Disposition. DoD Directive 7640.2 prescribes
     resolution and disposition standards for contract audits, including time frames.
     Contract audit reports should be resolved within 6 months of issuance and
     dispositioned as soon as possible after resolution. Audit reports are overage if not
     dispositioned within 12 months of issuance. Resolution is achieved when the
     auditor and the contracting officer agree on the action to be taken on audit report
     findings, or when the contracting officer determines a course of action.
     Disposition of the contract audit report is achieved when the contractor
     implements the audit recommendations or the contracting officer’s decision, or a
     settlement is reached, or the contracting officer issues a final decision under the
     Disputes Clause and 90 days elapse without contractor appeal to the Armed
     Services Board of Contract Appeal. Deviations from the established time frames
     should be fully justified and documented in the contract file.

     Periods of Unexplained Inactivity in Settling Questioned Costs. Contract files
     of six overage contract audit reports, with total questioned costs of $3.6 million
     and delays of 11 to 54 months, contained no evidence of progress in
     dispositioning two open reports or explanation for delays in closing four reports.
     The six reports are listed in Table 2.

         Table 2. Reportable Audits With Periods of Unexplained Inactivity
                                                                          Months of
                                 Costs             Date      Date        Unexplained
      Audit Report Number      Questioned         Opened    Closed        Inactivity
      OSC
      3141-1997D17200002        $1,028,803        2/24/97   8/24/98          11
      3201-1999F19500001           398,017        6/23/99    Open*           21
      3541-1995G10250092           263,161        3/15/95   10/26/99         49
      3541-1997G10250095          1,657,891       9/29/97    1/3/00          19
      6341-1996H10250006           124,906        9/30/96    Open*           54

      TACOM-ARDEC
      3541-1997N42000001           127,159        3/17/98    3/8/01          31
        Total                   $3,599,937

      *As of 3/31/01




                                              9
     Impact of Unexplained Delays. DoD Directive 7640.2 requires CAFU officials
     to establish procedures to monitor and ensure the proper and timely resolution and
     disposition of contract audit reports. The DoD acquisition and contract
     administration organizations shall maintain timely and complete information
     regarding the status of reportable contract audit reports from the time the report is
     received through final disposition. The unexplained delays jeopardize a
     contracting officer’s ability to collect monies owed to the Government while
     increasing the amount to be collected as applicable interest charges accrue.
     Further, when events causing significant delays and attempts to resolve them are
     not documented, oversight officials cannot determine their causes and implement
     effective solutions.

     As an example, DCAA Audit Report No. 3201-1999F19500001, June 23, 1999,
     detailed how a contractor had realized decreased costs of $398,017 on a fixed
     price contract from a voluntary change to its cost accounting practices. Decreased
     costs to a fixed-price contract represent excess profits to a contractor and
     increased costs to the Government. FAR Subpart 52.230-2, “Cost Accounting
     Standards,” requires an adjustment to the contract price for any increased costs
     resulting from a voluntary accounting change and reimbursement for any
     increased costs paid by the Government. The adjustment should include interest
     from the time of the overpayment by the Government to the time the adjustment is
     effected. Army officials at OSC responsible for dispositioning the audit informed
     us that several successive administrative contracting officers had been assigned to
     disposition the audit. However, the contract file contained little documentation to
     describe what settlement efforts each administrative contracting officer had made
     or to explain the delays. As a result, each new administrative contracting officer
     had to relearn the issues in this reportable audit in order to continue the settlement
     process, which had progressed little during the 33 months since the report was
     issued.

     The contractor continues to benefit from the $398,017 excess profits caused by
     the voluntary accounting change. However, interest is accruing against the
     contractor. The potential interest, calculated as simple interest using an average
     Department of Treasury rate of 8 percent over 33 months from the June 23, 1999,
     report date through March 31, 2002, would be approximately $88,000 if the
     recommended price adjustment is settled for the full amount.

Notification to the DCAA of Final Disposition
     The records for 14 of 53 closed audits reviewed did not contain evidence that the
     Army notified the DCAA of the results from dispositioning a reportable audit.
     DoD Directive 7640.2 and local implementing procedures at the sites we visited
     state that a copy of the disposition memorandum shall be provided to the
     cognizant auditor when an audit report is closed. The DCAA requires the
     notification to update its management information system that is used to compile
     and report semiannual information to the OIG DoD for incorporation into reports
     to Congress. The contracting officer should therefore always prepare a
     memorandum addressing the disposition of all recommendations and questioned




                                          10
    costs in a reportable audit, including the underlying rationale supporting their
    disposition. A copy of this memorandum should then be provided to the
    cognizant contract auditor whenever a reportable audit is closed. Although the
    Director for IMA stressed the need for Army compliance with overall disposition
    procedures in his December 21, 2001, memorandum, we believe special emphasis
    is required to ensure feedback to the cognizant contract auditor.


Recommendations and Management Comments
    B.1. We recommend that the Assistant Secretary of the Army (Financial
    Management and Comptroller) conduct a preliminary review pursuant to
    DoD Regulation 7000.14-R, “Financial Management Regulation,” volume 14,
    to determine whether a potential Antideficiency Act or other funding
    violation occurred in dispositioning audit report number 3541-
    1997N42000001, and take appropriate action.

    Management Comments. The Army concurred. On July 11, 2002, the
    Armament Research, Development and Engineering Center (ARDEC) issued a
    flash report for the Assistant Secretary of the Army, Financial Operations,
    Washington, DC. A team is being selected at ARDEC to review the situation and
    report their findings.

    B.2. We recommend that the Assistant Secretary of the Army (Acquisition,
    Logistics, and Technology) instruct contracting officers to:

          a. Comply with guidance in the Director for Defense Procurement’s
    January 13, 1995, memorandum.

            b. Ensure that contract modifications which implement settlement
    agreements include a formal and explicit release of all pertinent contractor
    claims.

           c. Maintain timely and complete information regarding the status of
    reportable contract audit reports from the time the report is received
    through final disposition.

            d. Provide a copy of the memorandum addressing the disposition of
    all recommendations and questioned costs in the reportable audit to the
    cognizant contract auditor.

    Management Comments. The Army concurred and stated that the organizations
    cited in the report are taking corrective actions to remedy the deficiencies noted in
    the report. The Army will also instruct contract audit followup monitors on
    current DoD and Army mandatory policies and procedures.




                                         11
Appendix A. Scope and Methodology

Scope
    Work Performed. We evaluated the accuracy of the information in the Army’s
    semiannual reports prepared to comply with the DoD Directive 7640.2 and
    reviewed Army policies and procedures implementing the Directive. We
    interviewed managers at the Office of the Deputy Assistant Secretary of the Army
    (Procurement) and at the Defense Contract Audit Agency, the Defense Contract
    Management Agency, and the U.S. Army Corps of Engineers Headquarters. We
    visited the Rock Island Arsenal, Illinois, and the U.S. Army Corps of Engineers in
    Savannah, Georgia. We also visited the Aviation and Missile Command, the
    Space and Missile Defense Command, and the U.S. Army Corps of Engineers, all
    located in Huntsville, Alabama. At all of the above locations, we:

        •   assessed the accuracy of data in the Army’s semiannual reports to the OIG
            DoD by comparing the semiannual report information to the data in the
            DCAA monthly reports;

        •   determined whether audit reports were resolved and dispositioned in a
            timely manner by reviewing their chronology of events and ascertaining
            whether the resolution and disposition dates fell within the prescribed
            milestones, 6 months for resolution and 12 months for disposition. We
            identified the reasons for any delays and determined whether the delays
            were justified. For open audits, we evaluated the written plan of action to
            determine whether it was reasonable;

        •   evaluated the proper settlement of each reportable audit by examining
            whether settlement documentation was generally prepared in accordance
            with regulations and whether contracting officials addressed all significant
            audit recommendations and provided a rationale for not sustaining any
            costs questioned. We determined whether a timely demand letter was
            issued when necessary, whether there was any evidence of management
            oversight through review boards or other means, and whether a copy of
            the settlement agreement was sent to the DCAA auditor. We reviewed
            pre-negotiation objective memorandums, post-negotiation memorandums,
            contract modifications, demand letters, interest calculations, or other
            documentation, as deemed necessary; and,

        •   verified that superseded reportable audits were closed out with $0 costs
            questioned and $0 costs sustained.

    We performed this audit from June 2001 through June 2002 in accordance with
    generally accepted government auditing standards. We included tests of
    management controls considered necessary. We did not validate the accuracy of
    the calculation and reporting of sustained questioned costs resulting from closed
    reportable audits nor verify that monies owed the Government were properly
    collected and accounted for by disbursing officials.

                                         12
Methodology
    Use of Computer-Processed Data. The Army did not maintain an Army-wide
    computer program for processing contract followup information. We relied on
    information assembled by the Army Headquarters for the semiannual reports
    submitted to our office. The results of testing the information in the reports
    showed an error rate that cast doubt on the validity of that information. However,
    when the data are reviewed in context with other available evidence, we believe
    that the opinions, conclusions, and recommendations in this report are valid.

    We relied on computer-processed data from the DCAA Agency Management
    Information System to identify reportable audits sent to the Army for resolution
    and disposition. Although we did not perform a formal reliability assessment of
    the computer-processed data, we did determine that the assignment numbers and
    questioned costs for the selected audit reports generally agreed with the computer-
    processed data. We did not find errors that would preclude use of the data to meet
    the audit objectives or that would change our report conclusions.

    Universe and Sample. To evaluate the accuracy of the information in the
    Army’s CAFU system, we compared information in the DCAA monthly records
    of reportable audits submitted to the Army for the months of April 2000 through
    March 2001 to the Army’s semiannual status reports for the periods ending
    September 30, 2000, and March 31, 2001. The two Army status reports combined
    included 209 audit reports and $362 million in questioned costs. The DCAA
    records showed 94 reportable audits had been issued during the 12-month period.

    To select a sample for evaluating the resolution and disposition of audit reports,
    we used DCAA records of open and closed reportable audits in Government fiscal
    years ending September 30, 1999 and 2000, and through March 31, 2001. We
    consolidated the DCAA records with the Army’s semiannual submissions for
    September 30, 2000, and March 31, 2001, into a single database to facilitate the
    elimination of duplicate records, open audits with a report date after June 30,
    2000, closed audits with a disposition date prior to October 1, 1999, and audits
    pending the outcome of litigation. The process yielded a universe of 245 audits
    consisting of all open audit reports dated prior to June 30, 2000, and all audit files
    closed after October 1, 1999. We provided the universe to the Office of the
    Assistant Secretary of the Army (Acquisition, Logistics, and Technology) with a
    request for documentation on the current status of open audits and the settlement
    of closed audits. The Army was not able to provide any information on 31 of the
    245 reports. We received documentation on 214 of the 245 reportable audits and
    judgmentally selected 96 audit reports to evaluate, as follows:

       •   34 audits at the Rock Island Arsenal, Illinois;

       •   32 audits at 3 Army commands in Huntsville, Alabama;




                                         13
        •   18 audits at the U.S. Army Corps of Engineers, Savannah, Georgia; and

        •   12 audits representing 9 field offices that had too few reportable audits to
            justify field visits by the team.

     We selected field sites based on the number of audit reports available for review
     at each location.

Management Control Program Review

     The DoD Directive 5010.38, “Management Control (MC) Program,”
     August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
     Program Procedures,” August 28, 1996, require DoD organizations to implement
     a comprehensive system of management controls that provides reasonable
     assurance that programs are operating as intended and to evaluate the adequacy
     of controls.

     Scope of the Review of the Management Control Program. We reviewed the
     adequacy of Army management controls over the contract audit followup system.
     Specifically, we reviewed the Army management controls for maintaining a
     complete and accurate contract audit followup database and ensuring the timely
     and appropriate processing of contract audit report recommendations. Because
     we did not identify a material weakness as defined by DoD Instruction 5010.40,
     we did not assess management’s self-evaluation.

     Adequacy of Management Controls. The Army management controls were
     adequate in that we identified no material management control weaknesses.

Prior Coverage
     During the last 5 years, the Inspector General of the Department of Defense has
     issued five reports related to the Contract Audit Followup process.
Inspector General of the Department of Defense (IG DoD)
     IG DoD Report No. 00-003, “The Air Force Contract Audit Followup System,”
     October 4, 1999

     IG DoD Report No. 99-057, “Settlement of Contractor Incurred Indirect Cost
     Audits,” December 21, 1998

     IG DoD Report No. 99-048, “Dispositioned Defective Pricing Reports at the
     Naval Air Systems Command,” December 8, 1998

     IG DoD Report No. 98-603, “Dispositioned Defective Pricing Audit Reports at
     the U.S. Army Aviation and Troop Command,” December 23, 1997

     IG DoD Report No. 97-045, “Evaluation Report on Dispositioned Defective
     Pricing Audit Reports at the Warner Robins Air Logistics Center,”
     September 24, 1997
                                         14
Appendix B. Report Distribution

Office of the Secretary of Defense
Deputy Chief Financial Officer
Deputy Comptroller (Program/Budget)
Director, Defense Procurement

Department of the Army
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency

Congressional Committees and Subcommittees, Chairman and Ranking
  Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          15
Office of the Assistant Secretary of the
Army (Acquisition, Logistics, and
Technology) Comments




                        17
18
Office of the Assistant Secretary of the
Army (Financial Management and
Comptroller) Comments




                        19
20
Team Members
The Deputy Assistant Inspector General for Audit Policy and Oversight, Office of
the Assistant Inspector General for Auditing of the Department of Defense
prepared this report. Personnel of the Office of the Inspector General of the
Department of Defense who contributed to the report are listed below.

Wayne C. Berry
Madelaine E. Fusfield
Chuck J. Chin
Eric D. Broderius
Ann A. Ferrante
Gloria A. Burnett
Krista S. Gordon
Ashley A. Harris
